         Smithsonian Institution
         Office of the Inspector General

                               Audit of Smithsonian Enterprises Financial Management
         In Brief              Report Number A-10-12, September 7, 2011

                                                                                                                 

Why We Did This Audit          Smithsonian Enterprises (SE) comprises the majority of the revenue-
                               generating operations of the Smithsonian Institution and operates three
We performed this audit to     divisions of business activities: Retail, Media, and Consumer Products.
address concerns raised by     The Corporate division provides support for these three divisions.
various parties regarding
issues in the financial        The President of SE is responsible for promoting efficiency and increasing
management of the              income contributed to the Smithsonian. As such, the efficiency and
organization. The objectives   effectiveness of SE’s financial management operations is essential to its
of this audit were to assess   overall success.
whether the SE Office of the
Chief Financial Officer        We determined that the Corporate and Retail divisions of SE do not
(CFO): (1) collaborated with   effectively collaborate with each other, have unclear roles and
division management to         responsibilities, and are not fully transparent to museums with regard to
accurately and timely report   financial information. In addition, SE’s allocation methodology may not
financial data; (2) provided
transparent accounting
                               fairly distribute costs.
services to museum partners;
and (3) established clear      Regarding collaboration, and roles and responsibilities, we found that the
roles, responsibilities, and   Corporate and Retail relationship is counterproductive, which adversely
lines of accountability. We    affects SE’s ability to provide support to its stakeholders. Continued
also assessed employee         conflict between the groups and management’s inability to resolve those
morale as it relates to        disputes has affected financial statement attestations; increased
financial management           disagreements over overhead (Corporate- and Divisional-shared service)
operations.                    allocations and execution of capital projects; and puts SE’s relationships
                               with some museums at risk.
What We Recommended
                               We also found that the financial information that SE presents to the
We made nine                   museums could be more transparent. Some information SE presents at its
recommendations that           annual directors’ meeting is outdated. Furthermore, SE does not involve
instruct the President of SE   all museums in regular discussions regarding direct and indirect costs, as
to direct Retail and           required by Smithsonian policy. SE could also improve the presentation
Corporate to collaborate       of indirect costs on its museum profit and loss (P&L) statements, which
during and develop written     would make their financial information clearer.
procedures for the budgeting
and execution of capital       SE allocates its overhead to museum partners to align the expenses
projects; modify the           associated with running retail operations. Because of the way SE develops
attestation letters; provide   some of its allocation percentages, the museums may not realize the full
more transparent
                               amount of any cost avoidance associated with canceled or postponed
information to museum
partners; and evaluate,        projects. Moreover, we question the basis SE uses to allocate some of its
modify, and document the       costs, and believe that allocating using this basis negatively affects the
allocation methodology.        smaller museums, which already incur high salaries and benefits expenses
                               in relation to their revenue.
Management did not agree
with our findings, but          For additional information or a copy of the full report, contact the Office of
generally agreed with our       the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
recommendations.
o         Smithsonian Institution

          Office of the Inspector General




Date 	    September 07, 2011

To 	      Tom Ott, President, Smithsonian Enterprises
          Kenneth F. Johnson, Acting Director, Office of Planning, Management, and Budget

cc        Carol LeBlanc, Vice President, Smithsonian Enterprises 

          Greg Bokman, Chief Financial Officer, Smithsonian Enterprises 

          (J.h~~~
From 	    A. Sprightl~lyan, Inspector General

Subject   Audit of Smithsonian Enterprises Financial Management Operations,
          Number A-I0-12

          This report presents the results of our audit of the financial management operations at
          Smithsonian Enterprises (SE). The Office of the Inspector General (OIG) initiated this
          audit to address issues in the financial management of the organization.

          Specifically, we were informed of concerns raised by various parties regarding allocation
          budget errors; museum revenue-share errors; and uncertainty over roles, responsibilities,
          and accountability.

          The objectives of this audit were to assess whether the SE Office of the Chief Financial
          Officer (CFO): (1) collaborated with division management to accurately and timely
          report financial data; (2) provided transparent accounting services to museum partners;
          and (3) established clear roles, responsibilities, and lines of accountability. We also
          assessed employee morale as it relates to financial management operations.
          While the objectives specifically refer to the Office of the CFO, we focused our efforts
          equally between the Corporate, which includes the Office of the CFO, and Retail
          divisions. We include a detailed description of our scope and methodology in
          Appendix A.




          MRC 524
          PO Box 37012
          Washington DC 20013-7012
          202.633.7050 Telephone
          202.633.7079 Fax
RESULTS IN BRIEF

We determined that the Corporate1 and Retail divisions of SE do not effectively
collaborate with each other during the budgeting process or while executing capital
projects, have unclear roles and responsibilities, and could improve their transparency
to museums with regard to financial information. In addition, SE’s allocation
methodology may not fairly distribute costs.

Regarding collaboration, and roles and responsibilities, we found that the Corporate
and Retail relationship is counterproductive, which adversely affects SE’s ability to
provide support to its stakeholders. Continued conflict between the groups and
management’s inability to resolve those disputes has affected financial statement
attestations; increased disagreements over Corporate- and Divisional-shared service
(overhead) allocations and execution of capital projects; and put SE’s relationships
with some museums at risk. We believe the lack of collaboration also negatively
affects SE employee morale.

We also found that the financial information that SE presents to the museums could
be more transparent. Some information SE presents at its annual directors’ meeting is
outdated. Furthermore, SE does not involve all museums in regular discussions
regarding direct and indirect costs, as required by Smithsonian policy. SE could also
improve the presentation of indirect costs on its museum profit and loss (P&L)
statements, which would make their financial information clearer.

SE allocates its overhead to museum partners to align the expenses associated with
running retail operations. Because of the way SE develops some of its allocation
percentages, the museums may not realize the full amount of any cost avoidance
associated with canceled or postponed projects. Moreover, we question the basis SE
uses to allocate some of its costs. Best practices suggest that SE should assign costs on
a cause-and-effect basis. We do not believe that full-time equivalents (FTE) have a
causal relationship with the majority of the costs that SE allocates. When SE allocates
costs using this basis, it negatively affects the smaller museums, which already incur
high salaries and benefits expenses in relation to their revenue.

We made nine recommendations to ensure that SE’s Corporate and Retail groups
improve their working relationship, transparency, and service to museum
stakeholders.




                                                            
1
    For the purposes of this report, we refer to the President and the Office of the CFO, which includes
    Accounting, Corporate Planning and Analysis, and Information Technology, collectively as
    Corporate.



                                                               2 
                                                                
BACKGROUND
SE Organization

SE comprises the majority of the revenue-generating operations of the Smithsonian
Institution and is an essential source of its unrestricted funds. It operates three
divisions of business activities: Retail, Media, and Consumer Products. SE’s Retail
division (Retail) operates stores, theaters, concessions, and food and beverage venues
inside the museums. It also operates the Smithsonian Catalog. Some of what Media
manages includes SE’s two magazines – the Smithsonian Magazine and Air and Space
Magazine – and the Smithsonian Network, a cable channel. Consumer Products
generates revenue through licensing agreements, such as partnering with Subway and
Kraft Foods, Inc. to leverage the Smithsonian name; and through Smithsonian
Journeys, a museum-based educational travel program. Corporate provides support
for Retail, Media, and Consumer Products.

The President is responsible for promoting efficiency and increasing income
contributed to the Smithsonian.

SE decentralizes its financial management operations within the organization. Each
division has its own staff that carries out distinct financial duties. The separate
finance departments within the divisions report on a “dotted-line” basis to the CFO,
which means that they work with the CFO regularly, but report directly to another
individual.

Financial Results

Since fiscal year (FY) 2008, SE’s revenue has trended downwards, while its net gain
has trended upwards. (Net gain is SE’s financial reporting terminology and is
equivalent to net income, i.e., total revenues less total expenses.) See Table 1 below.

Table 1. Revenue and Net Gain trend since 2008, as reported in the Institution’s audited
financial statements.

                       Fiscal Revenue       Net Gain
                       Year (in millions) (in millions)
                        2008      $157.3         $26.7
                        2009      $155.2         $27.0
                        2010      $146.5         $27.8

In FY 2010, SE generated $146.5 million in total revenue, with Retail bringing in $81.2
million; Media, $57.6 million; and Consumer Products, $7.7 million.
The Smithsonian shares a portion of Retail’s net gain (known as the revenue share)
with museum partners. According to SE, the museums received approximately $10.6
million and $11.0 million in FYs 2009 and 2010, respectively.


                                        3 
                                            
SBV Task Force, SD 324, and the Revenue Share Model

In 2007, because of continued disagreement between the museums and what was then
known as Smithsonian Business Ventures (SBV)2 over the revenue share, and other

controversies relating to SBV,3 the acting Secretary established a Task Force to
examine the existing SBV structure. In addition to examining revenue share
methodologies, the Task Force was to consider the outsourcing of the museum stores.
Ultimately, the Task Force recommended improvements to SBV’s structure and
organization; ways to maximize its financial and program-related contributions to the
Institution; a name change; that SBV maintain the museum stores under Smithsonian
management; and a change to the revenue-share model to make it consistent
throughout the Institution. The revenue-share model is the formula by which the
Smithsonian distributes net gain between the museums and the central trust, which
comprises the Smithsonian’s non-appropriated funds.

Prior to the Task Force, SBV had individual revenue-sharing agreements with each
museum. The Task Force recommended that the Smithsonian replace these models
with one standard formula. As a result, in January 2009 the Smithsonian issued a new
policy, Smithsonian Directive (SD) 324, which requires that the museums and the
central trust share net gain on a 50-50 percent basis.

SD 324 also describes roles and responsibilities for various stakeholders. The
responsibilities of key personnel as they relate to our audit objectives are as follows:

             The Director of Office of Planning, Management and Budget (OPMB) is
              responsible for the revenue share methodologies and procedures.
             The SE CFO is responsible for the allocation methodology, producing P&L
              statements, and reviewing costs with stakeholders.
             The Retail Vice President4 is responsible for collaborating with museums on
              improving retail performance.
             The Smithsonian Under Secretaries and SE President are responsible for
              approving and recommending changes to the revenue share policy.

       In addition, the Director of OPMB, along with SE managers, museum directors,
       and the SE CFO are collectively responsible for reviewing, questioning, and

                                                            
2
  One of the recommendations that came from the Task Force was to change the organization’s name
  from Smithsonian Business Ventures to Smithsonian Enterprises. The name change became official
  on July 1, 2008.
3
  James V. Grimaldi and Jacqueline Trescott, “Controversial CEO to Leave Smithsonian Business
  Ventures,” (Washington, D.C.: Washington Post, May 17, 2007),
  http://www.washingtonpost.com/wp-dyn/content/article/2007/05/16/AR2007051601964_pf.html
  (downloaded May 18, 2011).
4
   Since the issuance of SD 324, SE has changed this title to Retail Director.



                                                               4 
                                                                
       discussing, on a regular basis, direct and indirect retail business costs and the
       methodologies used to allocate shared-service costs.

Shared Service Allocations

In computing net gain, SE must account for the cost of the central services necessary
to operate and administer various retail activities in the museums. SE shows the
distribution of these costs to the museums through P&L statements, which are
individual income statements for individual stores, theaters, food and beverage, and
concessions operations within a museum (called satellites). SE divides the costs into
two types: corporate-shared services and divisional-shared services.

Corporate-Shared Services

Corporate-shared services are the costs allocated by Corporate to support the lines of
business5 and include Accounting, Human Resources (HR), Management
Information Systems (MIS), Office Management, and Reporting Systems.

SE allocates its corporate-shared services expense in a two-step process. In the first
step, Corporate develops allocation percentages to distribute corporate costs to the
lines of business. For example, SE uses the number of IT connections for MIS, time
estimates for HR and Accounting, as well as other methods for the other departments.
In the second step, SE allocates costs from the lines of business to the satellites in two
different ways. For stores and theaters, SE bases the cost allocation on FTEs. For food
and beverage, and concessions, SE bases the cost allocation on percent of revenue.

Divisional-Shared Services

Divisional-shared services are the costs associated with operating Retail, such as Retail
management, finance, distribution, buying, and the like. SE also allocates the
divisional-shared services in a two-step process. In the first step, Retail computes
allocation percentages using various methods. For example, Retail bases its
management percentages on projected revenue, and other percentages on the lines of
business they support. Retail provides Corporate with these percentages, which
Corporate then enters into the accounting system. In the second step, SE allocates
divisional-shared services from the lines of business to the satellites the same way it
allocates corporate-shared services. See Figure 1 for a graphical representation of how
SE allocates costs.




                                                            
5
    As noted earlier, SE Retail has five lines of business: Stores, Theaters, Food and Beverage,
    Concessions, and Catalog.



                                                               5 
                                                                
Figure 1. Corporate- and Divisional-Shared Services Allocation Flow


    Corporate costs driven to                                   Divisional costs driven to lines 
                                     Corporate‐ &                of business using projected 
      lines of business using      Divisional‐Shared               revenue for Finance and 
    number of IT connections,           Services                Management.  Other costs are 
        time estimates, etc.
                                                                allocated directly to the lines 
                                                                   of business they support



          Stores             Theaters               Food and           Concessions
                                                    Beverage




     ‐‐‐‐ ‐ allocated to                                                     ‐ allocated to 
     satellites based on                                                 satellites based on 
             FTEs                   Individual Satellite                       revenue
                                         Locations




SE’s Budget and Capital Appropriation Processes

SE’s fiscal year ends on the last Saturday of September each year. SE begins its annual
budgeting process in early March and finalizes it in July. During this process, all
divisions work autonomously on their own budgets. The divisions then present these
budgets to the CFO and President for review, discussion, and approval. In FY2010,
the President approved the budget before presenting it to the Board of Regents
Finance Committee at their August meeting.

Retail incorporates proposed capital projects for the upcoming year into its budget.
To execute these projects, Retail must submit to Corporate a Capital Appropriation
Request (CAR) form, which provides the financial analysis supporting the project.
Corporate must review and sign the CAR form to authorize the project. As of FY
2011, SE also requires a museum executive to sign the CAR form.

Conflict between Corporate and Retail

There is a longstanding history of disagreements over roles and responsibilities
between Corporate and Retail. These disagreements came into focus in November of




                                               6 
                                                 
2009 when the President and CFO requested Retail management to sign a financial
statement attestation letter.6 Retail management had concerns about the letter’s
content and whether they had the obligation to sign the letter as written. Retail
management did sign the letter, but included several caveats:

              (1) the role and responsibility of the Retail Division Financial Manager with
              respect to the financial statements required specific definition;

              (2) the stores’ financial reporting depends on systems and processes managed
              outside of the Retail Division’s internal control structure;

              (3) internal control deficiencies surrounding the systems and processes should
              be resolved; and

              (4) specific divisions could not attest to elements outside of their immediate
              control.

The President and CFO determined that the concerns were not material to the SE
consolidated financial statements.

The President tasked SE executives with resolving the conflicts between their
divisions, and assigned the Director of Human Resources to facilitate the meetings.
The participants at the meetings developed a thirteen-point document (the 13-Point
Plan), which highlighted specific points of concern between Retail and Corporate and
set forth resolutions. For example, SE representatives discussed the unclear
organizational structure, allocations by museum, the text of the attestation letter, and
issues surrounding the accounting for Cost of Goods Sold (COGS). Some viewed the
process as constructive, while others had less confidence in its effectiveness.

Again, in FY 2010, in discussions regarding the attestation letter, a Retail management
employee indicated he would hesitate to sign the letter. His concerns centered on the
presentation of COGS; payroll expenses; unbudgeted accounts; and the distortion of
satellite profitability created by overhead allocation methods. The CFO and the Retail
Director of Finance provided a joint response to the SE President to address the
employee’s concerns.




                                                            
6
    Generally, a financial statement attestation letter certifies that the signatory has no knowledge of
    fraud, conflicts of interest, material internal control weaknesses, material misstatements, or omissions
    in the financial statements.



                                                               7 
                                                                
RESULTS OF AUDIT
Lack of Collaboration between Retail and Corporate and Unclear Roles and
Responsibilities Negatively Affect Service to Museums and Financial Profitability

We found that the collaboration between Corporate and the Media and Consumer
Products divisions was generally effective. However, Corporate and Retail do not
collaborate during the budgeting process, which often delays the implementation of
budgeted capital projects or results in their cancellation. These delays or cancellations
may lead to a loss of revenue and jeopardize relationships with museums. In addition,
a lack of understanding of roles, responsibilities, and accountability regarding
ownership of the allocation methodology and explaining financial information leads
to poor service to some museums. Further, based on our interviews and the tenor of
internal communications, we believe the lack of collaboration negatively affects
employee morale.

We identified the following instances where the lack of collaboration between the two
divisions adversely affected SE’s potential revenue growth.

   In its 2011 budget for the National Museum of the American Indian (NMAI),
    Retail included plans for a store consolidation in November 2010 and a café
    expansion in March 2011. Retail projected that the store consolidation would save
    approximately $139,000 in salaries and benefits. The café expansion stood to
    increase gross revenue by approximately $97,000 in FY 2011. The SE President
    approved the FY 2011 budget, which included these projects, in June 2010.

    In late October 2010, Retail submitted the CAR forms to Corporate to receive
    authorization for the capital projects. Corporate did not immediately approve the
    CAR forms because they lacked several elements, including an internal rate of
    return calculation; a net present value calculation; support for an increase in
    vendor revenue; and accurate COGS and gross margin percentages. In addition,
    Corporate requested that Retail open discussions with the third-party food and
    beverage vendor to modify an existing contract before it would authorize the café
    expansion project. Further, Corporate did not receive the CARs in enough time
    for Retail to execute the projects as budgeted. Consequently, SE delayed the
    projects. In so doing, SE will delay the time it takes for the café expansion to
    operate profitably.

    The lack of written procedures regarding the CAR submission process hampered
    collaboration between the two divisions. Written procedures help to enhance
    productivity and maintain continuity of operations. Further, we saw no evidence
    that the divisions worked together, in advance of the CAR submittal, to ensure the
    timely commencement of either project.


                                        8 
                                         
   In its FY 2010 budget request, SE included the addition of a theater at the National
    Museum of American History (NMAH). Though Retail’s expectation to open the
    theater was clear, the ensuing events were both costly and chaotic. Retail
    outsourced to a consultant to put together a business plan for the theater;
    however, we learned that the SE CFO disagreed with the assumptions in the
    business plan and concluded that the project was not economically viable.
    Though the museum was aware that SE was performing an analysis on the
    addition of a theater, they claimed that SE had not apprised them of the project’s
    inclusion in the budget until the annual directors’ meeting. Ultimately, the
    museum obtained private funding for the theater, resulting in the cancellation of
    the SE project. However, SE charged the museum with $115,000 in preliminary
    costs associated with the project, which affected the museum’s net gain. This
    series of events raises concerns about the internal deliberations across SE
    regarding capital projects and the extent to which SE as a whole is adequately
    coordinating its business planning process with its museum stakeholders.

Also, during several meetings with museum partners concerning Corporate-shared
services, the museums questioned the financial benefits of the inventory systems and
distribution centers consolidation. Corporate could not address their concerns
because, they stated, they were waiting on Retail to provide the information. We
question the practice of budgeting resources that support Retail initiatives without
collaborating with Retail.

The lack of collaboration between Retail and Corporate is also a concern outside of
the budgeting process. For example, SE does not have detailed financial procedures
regarding the closing of satellites. During our review of the P&L statements, we
noticed that SE had not written off assets from two closed satellite locations. Retail
closed them over two years ago, but the P&L statements still reflected fixed assets for
the locations. SE has since written off the assets, but because this did not happen
sooner, the museum experienced an unexpected loss of approximately $27,000 in net
gain in the second quarter of FY 2011. We could not determine why SE did not write
off the assets at the time it took the satellites out of service.

Museum directors and personnel may occasionally request financial information from
SE. Based on the various position descriptions we reviewed, it is unclear who is
ultimately responsible for providing financial information to the museums. For
example, we noted that the CFO position description states that the CFO is
responsible for providing analysis and financial reporting to the museum directors.
At the same time, the Retail Director of Finance’s position description states that he is
responsible for preparing all financial reports and requests to and from museum
partners. Furthermore, the Chief Operating Officer’s position description states that
he is responsible for presenting operational financial results to museum directors.



                                        9 
                                         
The overlapping duties set forth in the position descriptions add to confusion over
roles and responsibilities, and weaken the service provided to museums.

The Institution recognizes that collaboration is important to achieving its mission and
revenue generating goals. The SBV Task Force stated, “The best opportunities to
accomplish something interesting and/or significant at the Smithsonian involve
collaborations with people who have other skills and other knowledge.” In addition,
SE has incorporated collaboration as an element into its senior executive performance
plans. An Outstanding rating requires that an executive “Encourages a work
environment that accepts differences, builds trust, promotes open & honest
communication without retribution, and effectively solicits, considers and, as
appropriate, incorporates differing views to avoid non-productive conflicts” and
“Accepts feedback and responds in a positive manner to ensure continued
collaboration.”

Certain SE position descriptions identify roles and responsibilities as they pertain to
the budgeting process. The Director of Retail is responsible for “developing and
executing business strategies, capital investments, and programs and activities, which
generate mission and non-mission related sales and profits.” His direct report, the
Retail Director of Finance, is responsible for the budget process. The CFO is
responsible for managing the process for the development and approval of annual
operating and capital budgets as well as any strategic investments. He is also
responsible for ensuring that appropriate line managers vet and execute revenue and
profit initiatives.

Notwithstanding the 13-Point Plan, the unclear, overlapping, and ill-defined roles and
responsibilities between Corporate and Retail continue to inhibit the working
relationship between them. While the 13-Point Plan indicates that SE identified roles
and responsibilities in organization charts and provided them to both groups, we note
that organization charts do not set forth roles and responsibilities. Further, the
confusion over the ownership of the allocation methodology that we discuss later in
this report, and the continued disagreement between Retail and Corporate regarding
attesting to the financial statements, show that SE has not effectively identified roles
and responsibilities. We also found no evidence of SE updating any management
position descriptions during the 13-Point Plan process. SE also has not addressed
other issues, including:

      Allocations by Museum. The 13-Point Plan indicates that allocations by
       museum are not material to the sign-off on the attestation letters. However, in
       our opinion, it is unclear from the language of the attestation letter, which
       refers to “my organization,” whether the allocations are in fact material to
       sign-off. For example, it is unclear whether “my organization” refers to all of
       SE, divisions, the lines of business, or individual satellites.



                                       10 
                                         
      COGS. The 13-Point Plan indicates there were questions regarding how the
       inventory system interfaced with SE’s accounting system. The document then
       indicates that the matter is a work in progress, but lists this item as closed,
       effectively contradicting itself.

Some employees were disappointed with the outcome of the 13-point plan. In fact,
one employee called the process a “complete failure.” The President takes
responsibility for the continuing problems between Retail and Corporate, and
recognizes the need to improve on the 13-Point Plan. He has hired an outside
facilitator to address the fractured relationship between Corporate and Retail.

Finally, we note that the lack of collaboration over budgeting and execution of capital
projects may be affecting Retail’s revenue. As of April 2011, as presented to the
Regents’ Finance Committee, Retail’s forecasted revenue for FY 2011 is down $8.5
million from its budget. SE attributed the shortfall to lower consumer spending and
poor catalog performance. We believe the continued disconnect between Corporate
and Retail also contributes to Retail’s declining revenue and hinders its ability to
maximize support for its stakeholders.

RECOMMENDATIONS
To promote collaboration between Retail and Corporate, and improve employee
morale, we recommend that the President, SE:

1. Ensure the CFO and Director, Retail Division, in coordination with museum
   partners, collaborate on Retail’s capital projects. Both divisions should
   demonstrate their understanding of the benefits, costs, and time-lines associated
   with each project prior to its inclusion in the budget.

2. Formalize and implement procedures for store closings and Capital Appropriation
   Request submittals.

3. Modify attestation letters so they are specific to each division and more explicitly
   explain the extent of the attestations.

Transparency of Financial Information SE Presents to Museums Could be
Improved

SE presents financial information to museums in various ways: at an annual directors’
meeting open to all directors of museums with SE retail operations, at annual
museum budget meetings, at quarterly museum operating reviews, and through
monthly P&L statements. However, SE does not fully comply with SD 324 or meet
the spirit of the Task Force report. In fact, several museums told us that they did not
understand the overhead costs or allocation methodology.



                                       11 
                                         
SD 324 guides the interaction between the Smithsonian, SE, and museums. It states
that the SE CFO is responsible for:

             participating with SE managers and museum directors to collectively review,
              question, and discuss – on a regular basis – direct and indirect retail business
              costs and the methodologies used to allocate shared service costs, and

             producing monthly P&L statements by retail activity to each museum location
              and coordinating with the SE Retail Vice President for communication to the
              museums.

These provisions implement the January, 2008 SBV Task Force report
recommendation that:
              To the extent feasible, without impeding performance or compromising
              contractual obligations, the rationale for decision-making, the operational
              structure, and performance information about business activities should be
              clear and accessible to those internal Smithsonian stakeholders who need to
              understand it.

At the October 12, 2010, annual directors’ meeting, which included museum directors
and Smithsonian management, SE reported an estimated net gain of $26.0 million for
the year just ended, as of September 25, 2010. However, SE’s income statement as of
September 25, 2010 and closed on October 19, 2010, showed a net gain of $27.8
million. In reporting the estimated net gain for the year at $26.0 million, SE relied on
financial data from June 2010 rather than actual net gain amount as of
September 25, 2010. As a result, SE’s presentation understated the net gain at year-
end by $1.8 million. SE explained that they confirmed the general accuracy of the
financial information presented at the directors’ meeting, using a late September
outlook.7 We reviewed these figures, and noted that they were within approximately
$500,000 of the June projection.

In the FY 2011 budget, SE showed an expected increase in net gain of 8 percent, or
$2.2 million. Had SE used the actual net gain amount at the close of the fiscal year,
rather than the outdated estimate, the projected increase in net gain would have been
1.4 percent, or $400,000. Understating the financial performance for the year thus
served to reduce the baseline against which to measure the projected financial
performance for the next year. We question why SE reported these June forecasted
numbers for an October meeting, 17 days after the fiscal year end, when more recent
financial data were available.


                                                            
7
    An outlook is a monthly projection of SE’s financial performance.



                                                               12 
                                                                 
We noted that the presentation materials for the prior year directors’ meeting dated
September 22, 2009 also understated actual financial performance for the previous
year. SE forecasted a net gain of $25 million, with a footnote stating that net gain
would be between $25.5 and $26 million; however, the actual net gain was $27
million. SE also presented the FY 2010 budgeted net gain of $25 million. Had SE
used the actual net gain figure, it would have appeared that it was budgeting for a
decrease of $2 million, or seven percent, in net gain for FY 2010. We found no
compelling reason why SE conducts the annual meeting prior to the close of the fiscal
year. In the interest of transparency, we believe if SE cannot provide more accurate
net gain estimates, it should conduct the annual directors’ meeting only when the
actual financial performance is known.

In addition, we do not believe the directors’ meeting allows for a sufficient, collective
discussion between SE and the museums. Based on our observations at one such
meeting, SE allotted a small amount of time for only a high-level review of overhead
costs. We also noted that SE has not provided museum directors an annual report
for all of SE.

In addition to the annual directors’ meeting, SE Corporate and Retail management
did independently visit most museums to explain their cost structure and budgeted
financial information. However, Corporate presented to only five of nine
stakeholders, and Retail presented to only seven. They both excluded the National
Museum of African Art (NMAfA) and the National Postal Museum (NPM), while
Corporate also excluded the Hirshhorn Museum and Sculpture Garden (HMSG) and
NMAI. We discussed transparency with all museum partners and learned
additionally that NMAfA and NPM do not receive monthly P&L data, nor do they
meet with SE to discuss their quarterly operating results. According to Retail,
historically, these museums have not been interested in hearing about their financial
results. However, we spoke with a representative from NMAfA, who stated that he
would welcome any information on the financial performance of his museum store
and that he was unsure if the museum was receiving any revenue share. He stated that
he never knew whom to contact about receiving financial information and had
stopped attempting because of his lack of success in the past. We confirmed this by
viewing internal communications from Corporate to Retail in November of 2009,
where Corporate notified Retail that NMAfA was interested in their revenue share and
P&L data. We also viewed the monthly P&L distribution list, which did not include
NMAfA. NPM expressed to us that it is not interested in learning more about the
museum’s financial performance because it does not receive any revenue share and as
such, does not believe meeting with SE regarding financials is a good use of its time.

In addition to excluding two of the smallest museums, Corporate did not meet with
HMSG or NMAI, although SE had planned to conduct major renovations in both
museums. HMSG is in the process of moving its Retail store to the lower level of the


                                        13 
                                          
museum, at a cost to the museum of approximately $241,000. As we described
previously, SE delayed the major changes to NMAI’s retail operations. The
renovations there are to cost approximately $296,000.

Corporate told us that they had considered following up with NMAI and HMSG after
the Directors’ meeting. However, this follow-up never occurred. Considering the
financial implications of the renovations, we believe Corporate should meet with
these museum partners.

Moreover, the annual budget meetings happen only after SE has finalized its budget
for the coming year, which suggests that SE is not seeking museum input. Indeed, one
museum mentioned that any questions it has during this meeting are moot.
Furthermore, this museum also believes that the quarterly operating reviews do not
allow them to review, question, and discuss costs, as prescribed in SD 324. We believe
meeting with and providing financial information to some museum partners, while
excluding others, demonstrates preferential treatment and is not sufficiently
transparent. If SE were to engage its museum partners earlier in the budgeting
process, it could bring more transparency to the process and more productively
collaborate in the spirit of the Task Force recommendations and SD 324.

Another instance of less than full transparency to museums is an accounting practice
where SE offsets the divisional-shared service expense with beverage revenue. The
practice of offsetting costs with unrelated revenue does not affect the net gain to the
museums, but constitutes a careless accounting practice. SE states this practice eases
processing; however, it results in P&L statements that are unclear. For example, in
some cases, because the beverage revenue was higher than the divisional-shared
service expense, the presentation on the FY 2010 P&L statements gave the appearance
that the divisional-shared services actually earned money for food and beverage
operations within the museums.

Last, SE’s P&L statements could be more transparent. SE presents corporate- and
divisional-shared services as two summary line items, rather than showing the detailed
costs that make up each. Without the detail behind the summary line items, the
museums cannot effectively understand SE’s costs, nor are they in a position to make
informed inquiries about them. Offsetting divisional-shared services with contract
revenue, and summarizing corporate- and divisional-shared service costs, obscure the
presentation of museum profit and loss. If SE displayed the costs by supporting
function on the P&L, such as “accounting” or “distribution,” it would increase the
transparency of the P&L to museum partners and allow the museums to better
understand, question and discuss costs in accordance with SD 324.




                                      14 
                                         
RECOMMENDATIONS
To foster greater transparency in its financial information, we recommend that the
President of SE:

4. Ensure that net gain information presented at the annual directors’ meeting is
   timely and accurate.

5. Prepare and distribute an annual report for all stakeholders that sets forth all of
   SE’s revenues and costs, and meet with museum partners to determine what
   additional information SE should include in the report.

6. Direct the CFO and Director of Retail to meet jointly with each stakeholder
   during the annual budget process to discuss both corporate- and divisional-shared
   services.

7. Provide the detail for corporate- and divisional-shared service expenses in the
   museum P&Ls, and discontinue the practice of offsetting costs with unrelated
   revenue in the P&Ls.

SE’s Allocation Methodology May Not Fairly Distribute Costs

We believe the way SE allocates its overhead costs may not fairly distribute costs to its
stakeholders. SE uses budgeted numbers to calculate fixed allocation percentages,
does not directly charge identifiable costs, and uses a questionable cost basis, all of
which result in some lines of business being under-charged at the expense of others.

SD 324 states that the CFO is responsible for ensuring that the method for allocating
divisional- and corporate-shared services is documented and results in a fair,
reasonable, and consistent allocation of these costs across all retail activities. It also
states the Director of Retail is responsible for collaborating with museum personnel
on matters related to continually improving retail activity performance.

As a best practice, SE should allocate costs using the following methods listed in order
of preference: (a) directly tracing costs wherever feasible and economically
practicable, (b) assigning costs on a cause-and-effect basis, or (c) allocating costs on a
                                  8
reasonable and consistent basis.

When SE does not execute a budgeted project, the museums may not realize the full
amount of any cost avoidance associated with the project not going forward because
SE allocates using budgeted costs. For example, Corporate included resources to
                                                            
8
    Statement of Federal Financial Accounting Standards Number 4. Managerial Cost Accounting
    Concepts and Standards for the Federal Government. July 31, 1995.



                                                               15 
                                                                 
support the inventory systems and distribution centers consolidation in its FY 2011
accounting budget at a budgeted cost of approximately $113,000.9 Corporate passed
the anticipated cost of the project along to the Stores and Catalog lines of business
through a 2.3 percent increase in the accounting overhead calculation. SE informed
us that this consolidation would not take place in FY 2011, but did not adjust its
allocation percentages. By not going through with the consolidation in FY 2011,
Stores and Catalog will forego approximately $61,000 in cost avoidance from the
cancelled project. A fairer approach to allocating project costs would have been to
directly charge the consolidation costs to the lines of business.

The complexity of the allocation methodology contributes to the lack of transparency
in SE’s overall presentation of financial data on P&Ls. SE allocates its corporate-
shared service costs in different ways. For example, SE allocates accounting costs to
the lines of business using invoice activity for accounts payable, time sheets for
payroll, accounting units for depreciation, and so on. Further, SE allocates MIS costs
using the number of IT connections, as well as budgeted level of effort. SE has not
provided written guidelines to the museums that describe in detail its methodology
for allocating overhead. While museums understand that there is a cost of doing
business, based on our discussions, the methodology is still unclear to them. One
museum director described SE’s overhead allocations as “shrouded in mystery.”

We disagree with the use of FTEs to allocate overhead charges because most of the
allocated costs do not have a causal relationship to FTEs. That is, the corporate- and
divisional-shared services provided to the museums, such as distribution, buying, and
information technology, generally are unrelated to, and do not vary with, the number
of people they employ. We do agree that museums consume such services as human
resources support and payroll proportionate to the number of FTEs. However, we
estimated such service represented approximately $477,000 of the $6.4 million, or
only 7.5 percent, in overhead charges to the Stores in 2010.

Several Retail personnel with experience at other major retailers, including the then
Director, report that they do not believe FTEs are an appropriate cost basis; they
believe percent of revenue would be more appropriate.

Allocating overhead charges from the lines of business to the satellites using FTEs also
adversely affects smaller museums because the FTE methodology penalizes museums
that have a higher ratio of labor costs to revenue. That is, in general, smaller
museums do not generate revenue relative to the number of FTEs with the same
success as the larger museums. Because of economies of scale, museums with larger

                                                            
9
    According to SE, there were other costs, including information technology costs, budgeted for this
    project. For the purposes of our example, however, we used only the costs from the accounting
    budget.



                                                               16 
                                                                 
revenue enjoy a higher return on investment from their workforce than smaller
museums. Thus, the overhead charges to the smaller museums reduce their operating
income disproportionately when compared to larger museums. Figure 2 compares
the National Air and Space Museum (NASM), the museum with the largest revenue,
and the National Postal Museum (NPM), the museum with the smallest revenue.

Figure 2. Relationship between overhead as a percent of revenue; salaries and benefits
expense as a percent of revenue; and revenue earned per average FTE for NASM and
NPM in FY 2010.

                                                NASM St or es   NPM St or e Ca lcula t ions
                             Tot a l Revenue    $ 13,027,822    $ 254,203        (A)
                           Tota l Over hea d    $ 1,600,672     $ 99,997         (B)
            Tot a l Sa la r ies a nd Benefits   $ 1,423,706     $ 125,355        (C)
 % Tot a l Over hea d t o Tot a l Revenue             12.29%         39.34%    (B)/(A)
  % Sa la r ies a nd Benefit s t o Revenue            10.93%         49.31%    (C)/(A)
                              Aver a ge FTEs            41.03           3.31     (D)
              Aver a ge Revenue per FTE         $ 317,519.42    $ 76,798.49    (A)/(D)


Discussions regarding the use of FTEs go back to the inception of the methodology.
One former Retail Director of Finance stated:

       Retail’s two biggest allocated costs are distribution and buying. Logically,
       these costs are dependent upon the volume of merchandise flowing into a
       location. As such I believe that allocating these costs based on FTEs will
       penalize smaller stores to the benefit of the larger stores.

In addition, another former Retail Director of Finance stated:

       Regardless of the fact that the FTE system is applied consistently, SE spends an
       inordinate amount of time explaining and justifying the current allocation
       system. Small shifts in staffing can lead to large allocation swings, which
       appear dubious compared to location revenue.

We identified a large allocation swing in the second quarter of 2011. The analysis
below demonstrates how a shift in FTEs led to this change and negatively affected
NMNH. This happened because NMNH’s FTEs remained constant compared to its
budget, while other museum FTEs were fewer than budgeted.




                                       17 
                                          
Figure 3. National Museum of Natural History (NMNH) is highlighted to emphasize the
negative allocation swing that occurred for them because of reduced staffing in other
museums.

                 Full-Time Equivalent Analysis            NMAH    NMNH    NASM Calculations
Budgeted Average FTEs through 2nd quarter of 2011           25.30   30.36   34.53   (A)
Actual Average monthly FTEs through 2nd quarter of 2011     18.20   30.60   30.23   (B)
Difference                                                   7.10   -0.24    4.30 (A) - (B)
             Budget Vs. Actual Overhead Analysis
2011 Actual Overhead through 2nd quarter                  $ 476,509 $ 802,832 $ 790,849     (C)
2011 Budgeted Overhead through 2nd quarter                   660,657  793,173 902,043       (D)
2010 Actual Overhead through 2nd quarter                     462,038  699,326 758,178       (E)
Actual minus Budgeted Overhead 2011 through 2nd quarter    (184,148)    9,659 (111,194)   (C)-(D)
2011 Actual minus 2010 Actual Overhead                        14,471  103,506    32,671   (C)-(E)


First, the reduction in FTEs for NMAH and NASM saved those museums
approximately $184,000 and $111,000 in budgeted overhead, respectively. However,
because SE did not reduce staffing at NMNH stores, it did not experience similar
savings; rather, its overhead increased by approximately $10,000 more than what was
budgeted. Second, NMNH’s 2011 actual overhead increased by approximately
$104,000 from the same period in 2010, yet NMAH and NASM experienced only
modest increases.

Significant allocation swings compared to revenue also appear in NASM’s revenue
through the second quarter of 2011, which was approximately $900,000 (or 26.5
percent) higher than NMNH’s revenue for the same period. However, NASM’s
overhead is about $12,000 (or 1.5 percent) lower than NMNH’s overhead. Because of
the allocation swing, NMNH’s net gain was down about $163,000 for stores, whereas
its operating income was down only about $60,000.

Using FTEs as a cost basis has been a longstanding concern within SE Retail. We
believe the use of FTEs as a cost allocation basis may be inappropriate because of the
lack of causal relationship FTEs have with the majority of the costs, the
disproportionate effect it has on small museums’ operating income, and the large
allocation swings that can occur from even minor shifts in staffing.

RECOMMENDATIONS
To ensure greater transparency and a more effective use of resources, we recommend
that the President of SE, in coordination with the Director of the Office of Planning,
Management, and Budget, and Museum Directors:

8. Evaluate the allocation methodology, particularly the cost basis for stores and
   theaters, and modify it as appropriate.



                                                  18 
                                                     
To ensure greater transparency regarding SE’s costs and allocation methodology, we
recommend that the President of SE:

9. Document the agreed-upon allocation methodology in a clear manner for
   museum partners to understand, including justifications for the cost bases and
   support for all SE lines of business percentages used.

MANAGEMENT COMMENTS
The President of SE provided formal written comments to our draft report on
August 19, 2011. SE generally concurred with eight of our nine recommendations;
however, SE disagreed with many of the key findings that lead to the
recommendations. Below, we summarize their comments and offer our responses.

First, SE agrees that it could improve collaboration between the Retail and Corporate
divisions. However, they disagree that there are unclear roles and responsibilities and
strongly disagree that the examples we provided in our report demonstrate a
reduction in the financial profitability of the museums.

Second, SE agrees that it could improve transparency, but disagrees that it has not
provided information in a timely and accurate manner, or does not allow sufficient
time to discuss results and answer questions.

Third, SE believes that its allocation methodology is reasonable.

In addition, SE took exception to our inclusion of survey comments in our report
because they believe some comments were influenced by other SE employees.

The President of SE proposed the following actions to address our recommendations:

      By September 30, 2011, SE Corporate and Retail groups will jointly complete
       all museum budget review meetings to discuss capital projects. In addition, SE
       management will write and implement procedures for store closings and
       Capital Appropriation Request submittals. Furthermore, SE will provide the
       detail for corporate- and divisional-shared service expenses in the museum
       P&Ls, and will discontinue the practice of offsetting costs with unrelated
       revenue in the P&Ls.

      By February 28, 2012, SE will consult with the SE Strategic Advisory
       Committee, and prepare and distribute an annual report to all stakeholders.

      By March 31, 2012, SE will consult with the SE Strategic Advisory Committee
       for questions and advice on presentation of the allocation method and details.




                                       19 
                                         
      By May 31, 2012, SE will evaluate the allocation methodology and modify it as
       appropriate. SE will task its incoming Retail Director to evaluate and
       recommend an alternate approach for implementation in FY 2013.

      By September 30, 2012, SE will move the annual museum director meeting to
       March/April. This move will allow SE to include and present the final audited
       financial results, as well as allow the directors an opportunity to provide input
       on their budget. SE will hold additional meetings with the museums to
       further review and collaborate on the budget. In addition, the SE CFO and
       Retail leadership will continue to meet with museums, and refine the process
       to discuss operational matters and overhead.

Finally, the President of SE does not concur with our recommendation to modify the
current attestation letters to specify the division and more explicitly explain the extent
of the attestation. According to the President, SE cannot alter its annual attestation
letter; however, SE will ensure that all employees required to sign the letter attend an
overview presented by the Smithsonian’s Office of the Comptroller (OC) on internal
controls and the attestation process. The target date for the OC internal controls
overview is June 30, 2012.

We include the full text of SE’s response in Appendix B.

OIG COMMENTS
We are pleased that SE agreed to improve collaboration between the Corporate and
Retail divisions, as well as the transparency of financial information to museum
partners. Below, we clarify the intent of several of our recommendations, and address
Management’s general comments on the report and disagreements with the findings.

For recommendation 8, SE stated it will review all allocation methodologies and
percentages and will rely on its new incoming Retail director to evaluate and
recommend an approach for the FY 2013 budget process. Concerning
recommendation 9, SE states it will consult with the SE Strategic Advisory Committee
for questions and advice on presentation of the allocation method and details. When
we follow up on SE’s implementation of these recommendations, we will be looking at
the evidence of SE’s reviews and consultations. Therefore, we would like to emphasize
to the importance for SE to keep a written record.

SE did not concur with our recommendation to modify attestation letters so they are
specific to each division and more explicitly explain the extent of the attestations. SE
claims that OC does not allow them to alter its annual attestation letter. According to
the Comptroller, however, the Smithsonian’s Office of the Chief Financial Officer
(OCFO) only requires attestation letters from the SE President and CFO. The
Comptroller concurred that SE cannot modify these attestation letters. However, the


                                        20 
                                          
Comptroller further stated that the SE President could modify any additional
attestation letters that he requires for his own internal documentation, as SE is not
required to submit these to the OCFO. We will continue to work with SE to resolve
this recommendation.

In their general comments, SE did not agree that roles and responsibilities are unclear.
However, based on our interviews with SE personnel, we encountered confusion over
roles and responsibilities with some staff.

SE stated that it does not believe that our examples demonstrate a reduction in
financial profitability of the museums. We would like to emphasize that, in the case
of NMAI, a lack of written procedures surrounding the CAR process was a
contributing factor to the project’s delay, which resulted in reduced profitability for
the museum.

Furthermore, while SE believes that the $115,000 in preliminary costs for the NMAH
Carmichael theater were not unusual in relation to what would have been a $2-3
million investment at the museum, the costs totaled approximately 5 percent of the
museum’s total net gain for the year. The five percent loss may not be significant for
an investment of this size; however, it was significant for the museum.

Concerning transparency, SE disagreed that it did not provide information to
museums in a timely and accurate manner. Although SE claimed to have discussed 89
percent of its overhead costs with museums, they still did not visit four of the nine
museums to discuss the corporate-shared service structure.

SE did not agree with what it called our “hypothetical” statement that their allocation
methodology may not fairly distribute costs. SE asserted that it has allocated costs on
a reasonable and consistent basis since FY 2005. However, as outlined in our report,
we believe the methodology is unreasonable given the fact that costs are distributed
using an allocation base that is generally unrelated to the costs.

SE stated that it did not concur that it should alter its allocation method to
accomplish distribution outcomes that benefit one museum over another. The
comment misrepresents our position. We do not recommend that SE adopt
allocation changes to accomplish distribution outcomes. Nor did we state that the
Retail director had proposed a revenue-based allocation scheme.

Regarding the inclusion of our survey results, we excluded all mention of survey
comments in our report because we did not rely on them to support our findings and
recommendations.

We appreciate the courtesy and cooperation of SE staff during the course of this audit.




                                       21 
                                         
 


    APPENDIX A. SCOPE AND METHODOLOGY
    The objectives of the audit were to determine whether the SE CFO: (1) has
    collaborated with division management to accurately and timely report financial data;
    (2) provided transparent accounting services to museum partners; and (3) established
    clear roles, responsibilities, and lines of accountability. We also assessed employee
    morale as it relates to financial management operations.

    Although the objectives relate specifically to the Office of the CFO, we reviewed the
    collaboration, transparency, roles, responsibility, accountability, and employee morale
    of all SE divisions, with a focus on Corporate and Retail.

    As a foundation for planning and for establishing criteria, we reviewed prior audits
    involving SBV; several SDs that pertain to SE operations, including SD 324; and the
    SBV Task Force Report issued January 28, 2008. We also reviewed the position
    descriptions and performance plans for relevant positions, as well as pertinent
    accounting standards and internal financial policies.

    To determine whether divisions collaborate internally and with other divisions, we
    interviewed the Directors of each division and key personnel within Retail and
    Corporate. We also reviewed financial documentation and internal communications
    provided to us by SE personnel.

    To confirm whether SE was providing transparent accounting services to museum
    partners, we: (1) attended a meeting that SE held with the museum directors; (2)
    attended a meeting that Retail held with a museum partner; (3) met with
    representatives from all museums that have an SE presence; (4) reviewed
    documentation, such as time studies and internal calculations, related to the
    allocation and revenue share methodologies; (5) interviewed SE executives and staff
    with retail responsibilities; and (6) examined SE financial data, including museum
    P&L statements, budgets, and forecasts.

    To verify that SE had established clear roles, responsibilities, and lines of
    accountability, we interviewed key personnel and reviewed position descriptions and
    performance plans. We also reviewed SE’s summary of the 13-Point Plan meetings.

    To assess employee morale and receive feedback on the objectives of the audit, we
    distributed a web-based survey to a group of SE employees in which we covered
    collaboration, transparency, accountability, and individual and overall employee
    morale. However, because SE alleged the survey results were coached, we did not rely
    on the survey results and assessed the employee morale objective by using the other
    methods described herein.

    We conducted this performance audit in Herndon, VA and Washington, D.C. from
    September 2010 to May 2011 in accordance with generally accepted government


                                          A-1 
 
 


    auditing standards. Those standards require that we plan and perform the audit to
    obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
    and conclusions based on our audit objectives. We believe that the evidence we
    obtained provides a reasonable basis for our findings and conclusions based on our
    audit objectives.




                                          A-2 
                                             
B-1
B-2
B-3
B-4
B-5
B-6
B-7
B-8
B-9
 


    APPENDIX C. CONTRIBUTORS TO THE REPORT
    The following individuals from the Smithsonian Office of the Inspector General
    contributed to this report:

    Daniel R. Devlin, Assistant Inspector General for Audits
    Joan T. Mockeridge, Supervisory Auditor
    Katie B. Spillane, Auditor
    Joseph E. Benham, Auditor




 

 




                                         C-1
                                           
